SEC.gov |  Updated Personnel Guidance
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Updated Personnel Guidance
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
AUDIT MEMORANDUM No. 28
June 24, 2003
To: Jayne Seidman
From: Walter Stachnik
Re: Updated Personnel Guidance
Many chapters in the Personnel Policy and Procedures (POPPS) Manual need updating.  The heavy personnel workload in the last several years (including the implementation of pay parity and the negotiation and implementation of a collective bargaining agreement with the Commission's union), has delayed revision of the Manual.  To date, current information on Pay Parity Implementation, SEC Worklife Programs, Telework, Administrative Leave Policy, and Training and Career Development have been updated and posted to the Intranet.  In addition, the Collective Bargaining Agreement, in its entirety, is available on the Insider.
The Office of Administrative and Personnel Management (OAPM), which is responsible for personnel guidance, plans to develop a comprehensive set of personnel policies for SEC staff that will be user friendly and easily accessible.  This guidance (which will replace the POPPS Manual), will be posted on the Intranet and contain links to relevant outside sites (
e.g., to the website of the Office of Personnel Management).
In the meantime, OAPM plans to continue use of the POPPS Manual supplemented as appropriate by the Collective Bargaining Agreement until the new guidance is developed.
Recommendation A
OAPM should implement its plan to issue updated personnel guidance, and establish timeframes for completion of the guidance.  It should also inform Commission employees regarding its plans and the personnel guidance they should use.
cc: Brian Bussey                                                                                                                                 Jim McConnell
Darlene Pryor
Carol Smith                                                                                                                                 Vic Tynes
Tom McCool
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us